<html>
<title> - [H.A.S.C. No. 112-110]MILITARY PERSONNEL BUDGET OVERVIEW--SERVICE PERSONNEL CHIEFS'PERSPECTIVES</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                         [H.A.S.C. No. 112-110]

                                HEARING

                                   ON

                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2013

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             SECOND SESSION

                               __________

               SUBCOMMITTEE ON MILITARY PERSONNEL HEARING

                                   ON

                       MILITARY PERSONNEL BUDGET

                      OVERVIEW--SERVICE PERSONNEL

                          CHIEFS' PERSPECTIVES

                               __________

                              HEARING HELD
                             MARCH 6, 2012



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>








                                    _____

                      U.S. GOVERNMENT PRINTING OFFICE

  73-436                   WASHINGTON : 2012
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="d7b0a7b897b4a2a4a3bfb2bba7f9b4b8baf9">[email&#160;protected]</a>  




                   SUBCOMMITTEE ON MILITARY PERSONNEL

                  JOE WILSON, South Carolina, Chairman
WALTER B. JONES, North Carolina      SUSAN A. DAVIS, California
MIKE COFFMAN, Colorado               ROBERT A. BRADY, Pennsylvania
TOM ROONEY, Florida                  MADELEINE Z. BORDALLO, Guam
JOE HECK, Nevada                     DAVE LOEBSACK, Iowa
ALLEN B. WEST, Florida               NIKI TSONGAS, Massachusetts
AUSTIN SCOTT, Georgia                CHELLIE PINGREE, Maine
VICKY HARTZLER, Missouri
                Craig Greene, Professional Staff Member
                 Debra Wada, Professional Staff Member
                      James Weiss, Staff Assistant









                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2012

                                                                   Page

Hearing:

Tuesday, March 6, 2012, Military Personnel Budget Overview--
  Service Personnel Chiefs' Perspectives.........................     1

Appendix:

Tuesday, March 6, 2012...........................................    21
                              ----------                              

                         TUESDAY, MARCH 6, 2012
     MILITARY PERSONNEL BUDGET OVERVIEW--SERVICE PERSONNEL CHIEFS' 
                              PERSPECTIVES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Davis, Hon. Susan A., a Representative from California, Ranking 
  Member, Subcommittee on Military Personnel.....................     2
Wilson, Hon. Joe, a Representative from South Carolina, Chairman, 
  Subcommittee on Military Personnel.............................     1

                               WITNESSES

Bostick, LTG Thomas P., USA, Deputy Chief Of Staff, G-1, 
  Headquarters, U.S. Army........................................     3
Jones, Lt Gen Darrell D., USAF, Deputy Chief of Staff for 
  Manpower, Personnel and Services, Headquarters, U.S. Air Force.     6
Murray, Sheryl E., Assistant Deputy Commandant for Manpower and 
  Reserve Affairs, Headquarters, U.S. Marine Corps...............     5
Van Buskirk, VADM Scott R., USN, Chief of Naval Personnel and 
  Deputy Chief of Naval Operations (Manpower, Personnel, Training 
  and Education)(N1).............................................     4

                                APPENDIX

Prepared Statements:

    Bostick, LTG Thomas P........................................    27
    Davis, Hon. Susan A..........................................    26
    Jones, Lt Gen Darrell D......................................   120
    Murray, Sheryl E.............................................    90
    Van Buskirk, VADM Scott R....................................    53
    Wilson, Hon. Joe.............................................    25

Documents Submitted for the Record:

    The Fleet Reserve Association's Statement on Military 
      Personnel Policy, Benefits, and Compensation, Submitted by 
      Master Chief Joseph L. Barnes, USN (Ret.), National 
      Executive Director.........................................   139
    Reserve Officers Association of the United States and Reserve 
      Enlisted Association's Statement on Personnel Issues.......   149

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Ms. Bordallo.................................................   161
    Mr. Loebsack.................................................   170
 
     MILITARY PERSONNEL BUDGET OVERVIEW--SERVICE PERSONNEL CHIEFS' 
                              PERSPECTIVES

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                        Subcommittee on Military Personnel,
                            Washington, DC, Tuesday, March 6, 2012.
    The subcommittee met, pursuant to call, at 2:34 p.m. in 
room 2212, Rayburn House Office Building, Hon. Joe Wilson 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
  SOUTH CAROLINA, CHAIRMAN, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mr. Wilson. Ladies and gentlemen, thank you for joining us 
for a subcommittee hearing of the Military Personnel 
Subcommittee of the House Armed Services Committee.
    We are delighted to have our participants today being the 
service personnel chiefs.
    This hearing will come to order.
    Today, the Military Personnel Subcommittee will receive 
testimony from the service personnel chiefs on the President's 
fiscal year 2013 budget request regarding military personnel 
matters.
    This is an especially important hearing because the 
subcommittee will hear the perspective of the military services 
about the reductions to Active Duty military personnel programs 
included in the budget request that so many congressional 
members have found troubling.
    Last week, the witnesses from the Office of the Secretary 
of Defense defended the budget request, and the subcommittee 
members openly expressed their doubts and concerns.
    As I made clear last week, I must be counted among those 
members with serious reservations about the budget request and 
the reductions in force and to the personnel programs that are 
included.
    America remains at war with a ruthless and committed enemy 
that shows we must have resolve to stop the enemies overseas, 
to protect American families at home.
    In the face of that reality, this budget offers no apology 
for the program reductions that go to the heart of our military 
capability by undermining programs that serve our military 
personnel, putting America and its allies, such as Israel, at 
risk.
    The proposed major reductions to end strength, compensation 
programs, and health care programs sap our combat capability 
and undermine the trust of service members, military families, 
and veterans.
    Now, the subcommittee will hear from the personnel 
leadership within the Services, the people with the most direct 
contact with the real stakeholders in this debate, the men and 
women serving our Nation in uniform. These are the leaders 
responsible for providing the manpower so critical to combat 
capability.
    If the subcommittee expects to hear the voice of our 
service members during testimony on this budget request, these 
are the witnesses we will rely on to bring us that message.
    I would like to welcome our distinguished witnesses: 
Lieutenant General Thomas P. Bostick, U.S. Army, Deputy Chief 
of Staff, G-1 Headquarters, U.S, Army; Vice Admiral Scott R. 
Van Buskirk, United States Navy, Chief of Naval Personnel and 
Deputy Chief of Naval Operations, Manpower, Personnel, 
Training, and Education; Ms. Sheryl E. Murray, Assistant Deputy 
Commandant for Manpower and Reserve Affairs, Headquarters, U.S. 
Marine Corps; Lieutenant General Darrell D. Jones, U.S. Air 
Force, Deputy Chief of Staff, Manpower and Personnel 
Headquarters, U.S. Air Force.
    I would also like to recognize that today is the first 
appearance before the subcommittee for Admiral Van Buskirk and 
Ms. Murray.
    We welcome you both.
    And Mrs. Susan Davis, who is our distinguished ranking 
member, would you have any opening remarks?
    [The prepared statement of Mr. Wilson can be found in the 
Appendix on page 25.]

    STATEMENT OF HON. SUSAN A. DAVIS, A REPRESENTATIVE FROM 
 CALIFORNIA, RANKING MEMBER, SUBCOMMITTEE ON MILITARY PERSONNEL

    Mrs. Davis. Thank you, Mr. Chairman, and General Bostick 
and General Jones, we welcome you back to the subcommittee.
    And Admiral Van Buskirk and, of course, Ms. Murray, we 
welcome you as well. Thank you for being here for your first 
testimony.
    We appreciate receiving your views on the fiscal year 2013 
budget request for military personnel. I look forward to 
hearing how the proposal will impact our military personnel and 
their families.
    As I mentioned last week, although the budget reductions 
have not severely impacted the military personnel accounts, 
they were certainly not immune. We need to understand what 
impacts there will be to personnel and family programs as a 
result of a proposed budget request.
    Over the past several years, the Service has made a good 
faith effort to fund quality of life programs for service 
members and their families in the base budget. I think that was 
extremely important, and we saw, I think, a generous response 
to the needs of our military and their families.
    Support for wounded warriors and their families, transition 
into civilian lives for those that are leaving the service, 
care and support for families that are staying, these demands 
are not going to go away. And in fact, in some cases, they may 
even increase.
    The Services will need to make a determination on what is 
important to sustain the All-Volunteer Force, and which may 
have to fall by the wayside.
    These are going to be very, very difficult decisions. And 
the subcommittee will need to understand the reasoning that 
underpins these decisions.
    Thank you, Mr. Chairman. I look forward to hearing from our 
witnesses and having a very substantive hearing today.
    Thank you.
    [The prepared statement of Mrs. Davis can be found in the 
Appendix on page 26.]
    Mr. Wilson. Thank you very much.
    And without objection, I ask that statements from the 
Reserve Officers Association and the Fleet Reserve Association 
be included in the record of this hearing.
    [The information referred to can be found in the Appendix 
on pages 149 and 139, respectively.]
    Mr. Wilson. Hearing none, so ordered.
    And Lieutenant General Bostick, we will begin with your 
testimony.
    And it is very humbling for a retired colonel to even make 
a recommendation. But the reminder we have is his statement 
should be about 3 minutes.
    We have your written statements for the record.
    General Bostick.

STATEMENT OF LTG THOMAS P. BOSTICK, USA, DEPUTY CHIEF OF STAFF, 
                  G-1, HEADQUARTERS, U.S. ARMY

    General Bostick. Chairman Wilson, Representative Davis, 
distinguished members of the committee, thank you for the 
opportunity to appear before you today.
    I am honored to represent the 1.1 million soldiers and 
nearly 300,000 civilians and their families. This combat-
seasoned force has performed superbly over the last decade.
    Now, the Army is poised to execute a drawdown of both our 
military and civilian personnel while still in combat and 
during a challenging economy. We will do this in a careful and 
deliberate manner while maintaining the best army in the world.
    To maintain an All-Volunteer Force of the highest quality 
soldiers, the Army must responsibly balance accessions, 
retention, promotion, voluntary, and involuntary separations.
    To assist our soldiers and civilians who will transition to 
employment in the private sector, we must equip them with the 
skills and knowledge to be successful.
    We completed a holistic review of our transition program, 
which will now better assist soldiers, civilians, and families 
as they return to communities across the country.
    We must continue to shape our future force by recruiting 
and retaining the next generation of Army leaders.
    We greatly appreciate your help in this effort and with 
improving the quality of life of our soldiers and their 
families through a superb health care system, educational 
opportunities, and soldier and family services.
    After a decade of war, many soldiers are coping with 
injuries and health issues resulting from their military 
service. Some are struggling with issues such as substance 
abuse, depression, and post-traumatic stress.
    Our suicide rates are tragically high. Our current programs 
to build resiliency and relieve stress are critical to 
maintaining the readiness of our Army.
    The success of these programs is due, in large part, to the 
strong support of the Congress. We must not waiver on our 
commitment to support those who have sacrificed so much for our 
country.
    We are aggressively addressing the issue of sexual assault 
and harassment in our ranks. This terrible crime violates our 
core values and breaks the bonds of trust that we hold dear.
    Our goal is to eliminate even one incident from occurring. 
And we are committed to fixing this problem.
    Our soldiers, civilians, and families have performed 
superbly over the last 10 years of a war, and I can assure you 
that your Army will continue to meet the Nation's needs 
whenever and wherever it is called to serve.
    Chairman Wilson, and members of the subcommittee, I thank 
you for your support, and I look forward to your questions.
    [The prepared statement of General Bostick can be found in 
the Appendix on page 27.]
    Mr. Wilson. Thank you very much. And we will now proceed to 
Admiral Van Buskirk.

  STATEMENT OF VADM SCOTT R. VAN BUSKIRK, USN, CHIEF OF NAVAL 
   PERSONNEL AND DEPUTY CHIEF OF NAVAL OPERATIONS (MANPOWER, 
             PERSONNEL, TRAINING AND EDUCATION)(N1)

    Admiral Van Buskirk. Chairman Wilson, Ranking Member Davis, 
and distinguished members of the House Armed Services 
Committee, thank you for the opportunity to review our fiscal 
year 2013 manpower and personnel budget request.
    In developing our request, we recognized that our Nation is 
at a historic inflection point. That we are shaping a Navy that 
will be more agile, flexible, ready, and technologically 
advanced.
    We believe our request appropriately balances risk in 
supporting the readiness requirements of the fleet, changing 
strategic mission focus, and essential programs that provide 
for the care of our sailors and their families.
    Our sailors operate forward from the United States bases 
and partner nation places around the world. On any given day, 
we have about 50,000 sailors and 145 ships under way.
    And about 100 of those ships deployed overseas assuring and 
partnering with our allies, while maintaining a global presence 
in order to deter aggression and stabilize the maritime 
crossroads.
    Our fiscal year 2013 budget request enables us to continue 
to meet the operational demands of the fleet and the joint 
force, while optimizing personnel readiness.
    As we move into this new era, the Navy is well-positioned 
to recruit, develop, retain, and provide American people the 
best and most capable maritime fighting force in history. Navy 
has worked hard to become a top 50 organization, an employer of 
choice providing world-class benefits and opportunities.
    As an All-Volunteer Force, we recognize that we must adapt 
to changing economic times while continuing to implement force 
management policies focused on incentivizing, encouraging, and 
rewarding high performance. We will continue to work towards a 
Navy that attracts and retains top-performing sailors who best 
possess the critical skills necessary for our mission.
    We are making hard choices on sailor retention as Navy 
continues to transition. But we are committed to doing so in a 
fair, transparent, and compassionate manner using performance 
as our benchmark.
    Our fiscal year 2013 Navy budget request appropriately 
balances the risk, preserve capabilities, and to meet current 
fleet and joint requirements, fosters growth in emerging 
mission areas, and provides vital support to Navy sailors and 
their families.
    The request supports Active end-strength of 322,700 and 
Select Reserve end-strength of 62,500. These levels will allow 
us to meet fleet and joint operational demands while optimizing 
personnel readiness.
    As we navigate through a period of change, Navy will 
continue to take action to posture itself for success in the 
future. Evolving missions, shifting workforce demographics, and 
increased competition for skills will require new and 
innovative approaches to attracting, recruiting, and retaining 
our best talent.
    Mission success starts and ends with a highly skilled and 
capable workforce. To build an effective future workforce, we 
remain focused on developing and sustaining a diverse 
workforce, providing our sailors with opportunities for greater 
work-life balance, and promoting open and frequent 
communication with families.
    With people as the heart and soul of our Navy's warfighting 
capabilities, we will enable and support our sailors and their 
families with personnel programs that provide a high return on 
investment and readiness.
    We priority funded our programs to address behavioral 
health, mitigate operational stress, support families, 
eliminate the use of synthetic drugs like Spice, and 
aggressively prevent suicide and sexual assault.
    On behalf of the men and women of the United States Navy, 
and their families, I extend my sincere appreciation to the 
committee and the Congress for your leadership, your 
commitment, and unwavering support. Thank you. And I look 
forward to your questions.
    [The prepared statement of Admiral Van Buskirk can be found 
in the Appendix on page 53.]
    Mr. Wilson. Thank you very much, Admiral Van Buskirk.
    And we will now proceed to Ms. Sheryl Murray.

STATEMENT OF SHERYL E. MURRAY, ASSISTANT DEPUTY COMMANDANT FOR 
 MANPOWER AND RESERVE AFFAIRS, HEADQUARTERS, U.S. MARINE CORPS

    Ms. Murray. Chairman Wilson, Ranking Member Davis, 
distinguished members of the subcommittee, it is my privilege 
to appear before you today.
    Lieutenant General Milstead hoped to be here today, but 
sends his very best regards as he recovers from surgery.
    The Marine Corps is our Nation's expeditionary force in 
readiness. At any given time, we have approximately 30,000 
marines and sailors deployed in Afghanistan and around the 
globe.
    We are ready to respond to today's crisis with today's 
force today. The individual marine is the Corps' most sacred 
resource, and the quality of our force has never been better.
    The new strategic guidance issued by the President and the 
Secretary of Defense, as you know, includes a reduction and our 
Active Component end-strength from 202,100 to 182,100 by the 
end of fiscal year 2016. Our goal will be to conduct this 
drawdown in a measured way, approximately 5,000 marines a year.
    During this time, we will continue to depend on OCO 
[overseas contingency operations] funding for end-strength 
above 182,100.
    In doing so, our overarching goal is to keep faith with our 
marines, to use natural attrition, and voluntary separation 
measures as much as possible; to allow marines to complete 
their current contract, their current period of service; to 
give marines and their families' ample time to transition and 
to provide a robust transition assistance for them.
    To this end, one of our most significant initiatives is 
improving our Transition Assistance Management Program, or 
TAMP.
    Already a mandatory program for marines, TAMP is being 
integrated and mapped to the lifecycle of a marine, beginning 
with recruitment through separation or retirement, and beyond 
as veteran marines.
    This core curriculum will have four well-defined pathways: 
university or college, vocational-technical training, 
employment, or entrepreneurship. This tailored approach will 
target the individual circumstances and needs of our marines.
    During our drawdown, as always, a top priority of the 
commandant and mine is to keep faith with our Marine families. 
Through program improvements and with your support, we are 
doing just that.
    I served 34 years as an Active Duty marine. And just as I 
was proud to earn the title of marine, I am pleased today to 
report that our marines are proud of the eagle, globe, and 
anchor, and what it represents to our country.
    With your support, our vibrant Marine Corps will continue 
to meet our Nation's call.
    I look forward to answering your questions.
    [The prepared statement of Ms. Murray can be found in the 
Appendix on page 90.]
    Mr. Wilson. Thank you very much, Ms. Murray.
    We now proceed to Lieutenant General Darrell D. Jones.

  STATEMENT OF LT GEN DARRELL D. JONES, USAF, DEPUTY CHIEF OF 
STAFF FOR MANPOWER, PERSONNEL AND SERVICES, HEADQUARTERS, U.S. 
                           AIR FORCE

    General Jones. Chairman Wilson, Ranking Member Davis, and 
members of the subcommittee, thank you for the opportunity to 
appear before you today to represent the men and women, the 
officers, enlisted, and civilian personnel of the United States 
Air Force who have performed valiantly during 20 years of 
continuous deployment and combat operations that date back to 
the Gulf War.
    In 2011, 69,000 airmen forward-deployed to 327 contingency 
locations across the globe supporting multiple operations, 
including major combat operations in Afghanistan and Libya, a 
major humanitarian mission in Japan and, of course, the 
honorable conclusion of our mission in Iraq.
    As the deputy chief of staff for Manpower, Personnel, and 
Services, I remain committed to recruiting, developing, and 
delivering to the battlefield innovative airmen to support our 
national security strategy.
    We are dedicated to properly managing our forces to 
maintain and sustain the appropriate size and force mix 
required to meet the current and future military operations.
    At the same time, we must continue the effort we began in 
earnest in 2010 to properly shape the force and remain within 
authorized end-strength.
    Fiscal year 2013 force structure reductions, and associated 
end-strength adjustments, will necessitate continuing 
implementation of force management programs in 2013 and beyond. 
We will exercise existing force management legislative 
authorities and, when needed, we will seek extensions of these 
programs and new programs that are required to help shape the 
force.
    As we proceed with our force management efforts, we will 
continue to utilize voluntary programs first, incentive 
programs where needed, and involuntary measures when required.
    We must also remain focused on assessing, retaining, and 
growing a motivated and uniquely qualified airmen force to meet 
the security threats of today and the future.
    We will carefully tailor recruitment and retention efforts 
to balance current needs with future requirements as 
underassessing or underretaining airmen has a potential to 
ripple through the force for many years to come.
    Therefore, we will continue investing in Air Force 
recruiting efforts and provide targeted retention bonuses as 
needed. These are worthy and necessary investments we make 
today to maintain a competitive advantage in drawing and 
retaining airmen to the force of tomorrow.
    The Air Force owes a debt of gratitude for the sacrifice 
made by our airmen and their families. Effective quality of 
life will continue to be one of our highest priorities.
    The demographics and lifestyles of our airmen have 
continued to change over the years and we must adapt to our 
programs to the Services and enforce the programs that they are 
interested in to ensure that we meet the needs of today's 
airmen and their families.
    The hallmark of the United States Air Force's success has 
always been, and will remain, our people. Our airmen continue 
to contribute significant capabilities to the joint team and do 
so with the integrity and excellence familiar to the global 
community.
    We appreciate your unfailing support of the men and women 
of our Air Force. And on behalf of the chief of staff of the 
United States Air Force, I look forward to answering your 
questions.
    Thank you.
    [The prepared statement of General Jones can be found in 
the Appendix on page 120.]
    Mr. Wilson. Thank you very much, General Jones.
    As we proceed, we will be on a timeframe ourselves--5 
minutes.
    And I am very grateful that Craig Greene, who is above 
repute, will keep this very carefully. And we will actually ask 
questions based on when persons have been seated.
    To begin--overall question, if anyone knows, and that is, 
are you aware of any significant personnel reductions in any 
other Department of Government?
    And I am specifically concerned, of course, of the district 
I represent for the reduction of 80,000 personnel of the Army. 
I am very grateful to represent Fort Jackson. I represent 
Parris Island.
    I am very concerned about the 20,000 personnel reduction in 
the Marine Corps. And if you are not aware, I just want to be 
aware, I am concerned that it seems like reductions only apply 
to military personnel of the Department of Defense [DOD].
    A specific question, and one of the hazards, General 
Bostick, of using the alphabet, you first, but I agree with you 
that our military service members, military families, veterans 
have sacrificed.
    They--we are at a time of conflict. And commitments have 
been made to our military in terms of health care benefits.
    And I am concerned that the proposal of the Department is 
for TRICARE Prime [health care program]; there is an increase 
of enrollment fees between 30 to 78 percent. But over 5 years, 
the enrollment increase can be between 94 percent and 345 
percent.
    This is, I just think, an imposition on the commitments 
that have been made to people who have served our country.
    Do you know of any alternative? And I am just concerned 
about the fairness of this.
    General Bostick. Chairman Wilson, as an Army and as a 
Department, I think we all feel the obligation to balance the 
needs of our military with those of the country. And as the 
Secretary of Defense and chairman, and our own secretary and 
chief mentioned, we take that obligation seriously.
    And we have got to, in places where we can tighten our 
belts, in places where we can meet the needs of the Nation 
while caring for our soldiers, civilians, and families, we are 
going to do that. And we are part of the solution for the 
country in terms of how it meets its fiscal responsibilities.
    That said, we will ensure that we do everything we can to 
support our soldiers.
    Mr. Wilson. And I appreciate your commitment. But I am very 
concerned, as Congressman Austin Scott pointed out last week, 
that there seems to be a move for free health care for 
everybody except for service members, military families, and 
veterans.
    Additionally in regard to TRICARE, General Jones, the fee 
increases are tiered. Now, an E-7 who served 28 years would pay 
more than an E-7 who served 20 years.
    The E-7 with 28 years does not earn more retirement because 
he and she served longer and sacrificed.
    How should that be considered again as fair?
    General Jones. Well, Chairman, I believe that, as General 
Bostick said, in these times where we all have to share the 
burden of the national debt and the crisis that we have, we 
take very seriously our obligation to maintain our benefits for 
our retirees as well as our Active Duty.
    If we can help contribute to, say, bend the curve of rising 
health care costs with modest increases, that may be something 
we have to seriously consider.
    1995 and 1996 was the last time we raised the price for any 
of our health care to our retirees. And I think a small portion 
may allow them to understand and make informed judgments as how 
they will get their health care in the future.
    But we don't do this lightly. I think that any change we 
have to do has to be taken into account of how it affects 
recruiting, how it affects retention, and how it affects the 
readiness of our force because certainly that is our key and 
our goal that we have to focus on.
    Mr. Wilson. And I appreciate those considerations.
    Finally, if anyone--I feel like sequestration again is 
somehow singling out the Department of Defense, the military.
    And with $0.5 trillion of additional cuts, January 1, over 
the $586 million already reduced, how will that affect your 
commands?
    General Bostick. I think our leadership has already, or I 
know our leadership has already mentioned that this would have 
a devastating impact on our military.
    We believe that we can manage the current drawdown through 
2017, but a sequestration would certainly have a devastating 
impact. And we would have to regroup on our current planning 
and what we think we can possibly do in terms of our strategy.
    Mr. Wilson. And as I conclude, I appreciate Secretary 
Panetta making that very clear.
    And I shall yield now to Mrs. Davis of California.
    Mrs. Davis. Thank you, Mr. Chairman, and thank you all 
again for being here.
    Perhaps I will start with General Jones.
    Could you please share with us, all of you, there are many 
challenges out there. But what do you see as the greatest 
challenge that you are facing this year and 5 years from now?
    And in those areas is it resources, is it authorities? What 
creates that challenge that you are probably most concerned 
about?
    General Jones. Ma'am, I would say the thing that keeps me 
up at nights, if you will allow me to use that term, is that we 
have to leave the force better than we have it today and 
posture it for successes down the road.
    We have to sometimes make the tough decisions in today's 
environment so that, in the Air Force, we can keep accessions 
up as high as we can because if we make a mistake and if we 
don't access to 100 percent of our goals, if we don't keep the 
people in earlier in their career, we are going to cause 
``bathtubs'' [bathtub-shaped chart curves reflecting downsized 
military capability] and ripples.
    Recruiting someone is as important as retaining them so 
that we maintain that readiness throughout the force. We have 
to be careful we don't default to an easy solution.
    When the money gets tied and the force structure drops, the 
number of people we are allowed to have, my personal opinion is 
we can't go to cut accession so that we are able to solve our 
problem today, but we saddle our successors with the burden of 
having lived with holes in the military that could last 20 
years.
    That is coupled with the fact that we have to be careful we 
don't say times are good in the military. Retention is 
extremely high.
    Retention is a 17-year high in the Air Force. However, we 
have pockets of career fields stressed in critical career 
fields, which do require incentives, which do require bonuses.
    We have to make sure that we don't make generalizing 
decisions to eliminate certain incentives for people that are 
in highly stressed, highly deployed career fields because we 
have to keep them in, more so than some of the others that are 
not as stressed.
    And those are the things I focus on, trying to maintain a 
strong force for the next 20 years after we are gone, not the 
next 2 or 3 years.
    Mrs. Davis. If you could all respond?
    Ms. Murray. Yes, ma'am. I would be happy to respond.
    In addition--I echo what General Jones says, and just a 
couple of more comments from the Marine Corps perspective.
    We are confident that we are recruiting the very highest 
quality individuals into the Marine Corps, but we have to still 
have the sorts of monies that we can incentivize those 
individuals who perform the stress skills.
    We have to be careful that we don't overcorrect. That we 
don't reduce certain funding levels, for instance, use 
recruiting as an example to a level so low that when we need to 
begin recruiting again when the economy gets well and we are 
then really competing, we need to make sure we have the money 
to do that.
    We are working to make sure we don't decimate our 
recruiting force.
    I think we have the authorities that we need, and I 
appreciate what you have done for us.
    Also, if we have something that comes up, we will be 
confident that we can come to you and seek some sort of 
additional authorities.
    It is really the challenge with the resources. As we have 
said, this Nation faces a tremendous economic crisis.
    And so we, as a Marine Corps, want to be part of the 
solution for that. But we also want to make sure that we don't 
have a hollow force, that we don't reduce too much in any 
particular grade.
    Those downsizing that we will do, the 5,000 every year, 
that will not be just accessions, that will not just be our 
first-term force. We will take a slice from the highest level 
on down to make sure that we have the capability to do what we 
need to do today with the right marines.
    Admiral Van Buskirk. Congresswoman Davis, I think a couple 
of points.
    One, in addition to the ones already made is ensuring we 
can get to see the right signal as recruiting changes.
    I think as the economy changes, it is going to be key for 
us to recognize that foreign advance so that we can posture 
ourselves as the recruiting market gets tougher.
    Retention, we have been at a point where all of our 
retention has been pretty good, and recruiting has been very, 
very good because of several different factors. But watching 
those indicators and making sure we are postured to be able to 
recruit appropriately and get the critical skill sets is one 
item.
    Second one, as mentioned by the chairman, has to deal with 
some of the discussions dealing with entitlements that keep us 
up at night in addition to health care pay and his retirement.
    I just returned from a trip to Japan, and there are 
discussions among the troops out there wondering what is going 
to be the future of their retirement and the angst associated 
with that.
    And so it is a challenge that we will have to work our way 
through. But it is one that we will have to work together to 
ensure we get that right if we decide to change it and to 
achieve it, at the very minimum, at least the force profiles 
that we are achieving today for retention of our critical skill 
and our service members.
    Mrs. Davis. Go to General Bostick or not--come back----
    Mr. Wilson. No, go.
    Mrs. Davis. Go, General Bostick?
    General Bostick. We thought about this a lot. And I think 
we see that the problem or the challenge ahead in three broad 
areas.
    One, we have the drawdown what we are dealing with.
    The second is the transition.
    And the third leg of the stool is the disability evaluation 
system.
    In the drawdown where we need assistance is in some areas 
of authorities. And I can give you those specifics, but we do 
need some help with authorities.
    In the transition area, we need connection between our 
employers that want to hire folks and our soldiers that want 
jobs. It is just connecting them.
    The biggest area that we need help is in the disability 
evaluation system. And our problem may be different from 
others.
    But currently in our drawdown plan, we are going to draw 
down anywhere between 10,000 and 15,000 soldiers a year.
    Now, juxtapose that against the disability evaluation 
system where I have 19,600 soldiers. Almost 20,000 soldiers are 
in the system that takes over 400 days to get through.
    It is fundamentally flawed. It causes an adversarial 
relationship with our medical professionals.
    It is long. It is disjointed. We have put money and 
leadership after this. And I am very concerned that while we 
are drawing down, this large number of soldiers will remain in 
the disability evaluation system.
    Mr. Wilson. Thank you, Mrs. Davis.
    We will proceed to Congressman Mike Coffman of Colorado.
    Mr. Coffman. Thank you, Mr. Chairman.
    You know, I too feel very concerned about the sequester and 
that that would certainly cut in the capability.
    But at the same time, I am disappointed at the direction 
that the Department of Defense has gone given the existing 
scenario for cuts. And I think that it seems to be more about 
defending the status quo than defending the country.
    When we see that retention rate is through the roof, and 
any other organization outside of the Department of Defense 
that has a very high retention rate, would slow down the 
promotion rate. Yet, we seem to be maintaining the same 
promotion rate and forcing good people out where we could slow 
it down, save money, give people more time and grade in their 
respective MOSs [military occupational specialties] before they 
advance.
    I don't see that being looked at.
    The military across the board is so incredibly top-heavy 
today, I am stunned.
    I believe we have more flag officers than we did in 1990, 
yet we have a fraction of the force. It is like the British 
admiralty that as the British Navy shrunk, the admiralty grew.
    And so we have got to slim down our military. And I 
understand there are some efforts there, but I can tell you 
that, well, from what I have seen, they are not deep enough.
    Look at this size of the civilian workforce in the 
Department of Defense. I mean, it is stunning.
    We have 1.42 million men and women in uniform. And we have 
800,000, almost 801,000, civilian workers in the Department of 
Defense.
    You know, I was an infantry guy in the United States Army 
or the Marine Corps. I don't know of a whole lot of casualties 
that were produced by somebody sitting behind a desk.
    And then we are not looking across the 1.42 million people 
in Active Duty and saying what do we really need to have on 
Active Duty, and what do we need in the Reserve Components.
    Israel is a country on a continual war footing. And the 
backbone of their organization is the Reserves, at a fraction 
of the cost when it comes to personnel cost.
    And yet we are just so status core oriented, we are just 
doing across the board cuts, and we are not reorienting our 
force as we ought to.
    And so I tell you, I just am incredibly disappointed with 
the lack of finesse that has gone into this process from all of 
the branches of the military and the Department of Defense, in 
terms of being able to conduct these reductions without 
compromising national security.
    And I believe that we fundamentally compromise capabilities 
with a lack of, I think, intelligence that has gone into these 
cuts.
    And with that, Mr. Chairman, unless anybody would like to 
respond I would yield back.
    Mr. Wilson. Is there any response.
    If not, we proceed to Congressman Dr. Joe Heck of Nevada.
    Dr. Heck. Thank you, Mr. Chairman. Thank you all for being 
here today.
    Just a comment first, on the retirement issue, and I 
appreciate Admiral Van Buskirk recognizing the impact of these 
discussions on our current serving members.
    It reminds me of when we thought that there might have been 
a Government shutdown and we were getting calls from people in 
harm's way over the static phone line wondering what was going 
on with their LES [leave and earnings statement].
    These discussions that we are having, and this loose talk 
that has been going around, really has a significant impact on 
our current service members.
    Why anybody would ever say we are going to put together a 
BRAC [base closure and realignment]-like commission to look at 
retirement that is beyond me because BRAC is not a term that is 
well-embraced.
    The chairman spoke a little bit about TRICARE. And what 
bothers me as a physician, and a physician who has practiced in 
the military for 21 years, is this idea that we are controlling 
costs.
    We are not. We are mistaken if we think we are controlling 
cost by changing enrollment fees, copays, and deductibles. What 
we are doing is cost-shifting.
    It does nothing to control cost by shifting the burden to 
those who we are supposed to be taken care of.
    So, I hope that we start to change some of that phraseology 
because you are not controlling costs. We are just putting more 
of the cost onto the person who is seeking the care.
    General Bostick, in looking through your written statement, 
I appreciate the line, ``As soldiers depart our Active Duty 
formations, the Army is committed to assisting them and their 
families as they transition to the Army Reserve, National 
Guard, or civilian life.''
    And I think you have heard Lieutenant General Stultz say 
quite often, we need to recruit a soldier for life and move 
them between the Components based on where they are needed.
    And not long ago, we had General Odierno who was asked, 
where is he going to accept risk based on the drawdown. And how 
was he going to mitigate the risk.
    And he said he was going to mitigate it based on the 
Reserve Component, which is great. We have really 
operationalized our Reserve Component over the last 10 years.
    But my concern is most of that was done with OCO money. And 
now that base budgets are decreasing, and OCO money is drying 
up, how are we going to maintain that capability in the Reserve 
Component?
    And how are we going to find a home for these Active Duty 
folks that are being separated when the Reserve Component is 
capped? The cap in the Reserve Component hasn't changed, still 
205,000. The National Guard is actually decreasing Army Guard 
by 5,000.
    So, those numbers don't compute. Unless we are going to 
hope that there is a lot less in retention in the Reserve, and 
that is going to open up slots. But we don't run those types of 
loss rates in the Reserve.
    So, help me understand how we are going to take these 
80,000 folks that potentially want to stay in the Reserve or 
Guard and find them a home, when the end-strength in the Guard 
and the Reserve is flat or decreasing.
    General Bostick. Well, the Reserve Component is an 
operational reserve, and we could not fight without them. We 
are completely convinced to that.
    And as we move forward, we will continue to find a way to 
continue to keep them as an operational force.
    The 80K that are going to come out of the Active Force, it 
is not a clean math equation to send them to the Reserves. Many 
will move on in terms of their own lives, whether they retire, 
transition to the Reserve Component, start their own business, 
go to school, or start a civilian job.
    What we have asked for is an increase in the bonus, the 
Selected Reserve bonus, so that an affiliation bonus would go 
from 10K to 20K. We think that would keep some of the talent in 
the Reserve Component. And we believe in a continuum of 
service.
    So, our chief and secretary have asked us to look at ways 
that soldiers might go in and out of the Reserves and in and 
out of the Active Force.
    And, as you know, some of the benefits, the medical 
benefits, and the paid benefits tie our hands in terms of the 
ability to do that. But we are looking at continuum of service.
    We are asking for a raise in the affiliation bonus. And we 
will continue to operationalize our Reserve. We just have to.
    Dr. Heck. And I would agree, and I appreciate that 
sentiment.
    But I guess, the question that I am trying to wrap my arms 
around is that if we get that authority to give an additional 
affiliation bonus, do you expect that the naturally-occurring 
attrition rate in the Reserves is going to open up enough slots 
to make way for those folks coming off Active Duty who want to 
stay affiliated, because historically those numbers haven't 
been that high.
    General Bostick. I would have to work with General Stultz 
and come back to you, sir. I really don't have that kind of 
fidelity.
    But I think in the specific MOSs and the challenged areas 
where we need specialties to transition, I think we could do 
that.
    Dr. Heck. Thank you, Mr. Chair.
    I yield back.
    Mr. Wilson. Thank you. Dr. Heck.
    And we proceed now to Congressman Allen West of Florida.
    Mr. West. Thank you, Mr. Chair and Ranking Member, and 
thanks for the panel for being here.
    And, of course, as I said, look at the Services 
representing here. I have friends, dear friends, in each one of 
these Services. And I have some relatives in a couple of these 
Services as well.
    You know, back when I was on Active Duty, we had a 
professional development book that we had to read, and that 
book was called, ``America's First Battles.'' And when you read 
that book, you understand that we have a very crappy record of 
predicting the next combat or conflict.
    We go back to Kasserine Pass. We go back to Task Force 
Smith. We look at Pearl Harbor. We look at Coral Sea. We look 
Corregidor, Bataan. I mean, we have a problem with this.
    And I don't want to see history repeat itself again by us 
ramping down our military while we live in a very Machiavellian 
world and someone is paying attention to that.
    So, the one question I have to each one of you is--and you 
kind of hit it already, Lieutenant General Jones--what is your 
number one unintended consequence concern with what we are 
doing as far as our personnel, our retirement, the cut of our 
military health care benefits?
    What is that number one unintended consequence that causes 
you the greatest concern?
    General Bostick. Sir, I will start off.
    When we did the drawdown in the 1990s, one of the things 
that we cut too deeply in and could not reverse was our officer 
corps. And one of the great things about our military is that 
we grow our leaders.
    And when you are short leaders, one of the challenges is 
that we grow our leaders. We can't hire them laterally.
    In some cases, we can. Doctors and nurses, and those with 
very specific skills, we might be able to bring in.
    But it takes 10 to 12 to 15 years to recover when we don't 
get this right.
    So, one of the things that we are trying to do as we go 
through this is preserve some of the officer corps in positions 
in our institutional part of the Army. Preserve some of those 
officers in the Reserve Component of our Army so that if we had 
to expand that we could do that and have the officers that 
would be needed.
    Admiral Van Buskirk. Congressman West, I think General 
Jones highlighted it as well when he mentioned hollow force. I 
think that is the number one consequence, biggest concern that 
we would have, ensuring that we get our force structure and 
end-strength in synchronization.
    We have taken some force structure cuts in the Navy by 
ships, and to make sure that: one, that we do not overshoot in 
terms of personnel to make sure that we get that right; and 
that we don't try and harvest savings in the near term from a 
personnel perspective and then cause what we call a T-notch 
later on that we can't recover from, or we have to mitigate 
through bonuses or special incentive pays.
    If we can maintain a steady stream of accessions in here as 
we go through this period of stabilizing our end-strength in 
the Navy and our force structure, and make sure that we don't 
take too many short-term savings on the front end, that will 
bode us well for the future to ensure that we can stay away 
from a hollow force.
    Ms. Murray. Representative West, thank you for that 
question.
    Our Marine Corps has conducted a force structure review, as 
you know, over the past few years. And our commandant is 
confident that we will be able to accomplish our mission with 
the force that we are designing with our 20,000 end-strength 
reduction.
    But we also are mindful, just as every other panel member 
has said here, that we need to make those decisions very 
wisely. We cannot overreduce in our officer corps or our senior 
enlisted.
    As you know, 70 percent of our force is first-termers. So 
we have a high number of first-termers, and it makes it even 
more important that our staff and COs [commanding officers], 
and our officers that we do retain the sort of skills we need 
so that we can accomplish the mission.
    We will count on our Reserves, absolutely. We are working 
in the Corps today to make sure we define how we will use our 
Reserves. We cannot turn away from the value that they have 
given to us.
    And we have to figure out how do we put that in our 
baseline, all those challenges we are working with.
    But our commandant is confident that with the work that we 
have done to shape our Marine Corps through the force structure 
review, that we will be able to do this.
    And, oh, by the way, we have done that on our civilians as 
well. Mention was made of the civilians.
    As you know, Marine Corps probably has the least number of 
civilians per every marine of any of the Services. But we have 
looked at how they are shaped as well.
    Mr. West. Okay.
    General Jones. Congressman West--Chairman, would you like 
me to----
    Mr. Wilson. Briefly.
    General Jones. I know I am past my time, yes, sir.
    In the last year, we have had an attempt to make a real 
strategic review of what reductions we could take: not taking 
percentage cuts across the board; bringing together the senior 
leadership; we have held four three-star summits to look at 
civilian reductions we have had over the last year that are 
represented in this budget; and trying to make it a strategic 
overarching strategy-based decision, so that we are not just 
creating that hollow force.
    And that is the thing we have got to do in the interest of 
time I'll end there.
    Mr. West. Thank you, Mr. Chairman.
    I yield back.
    Mr. Wilson. Thank you, Congressman West.
    We will now proceed to Congressman Austin Scott of Georgia.
    Mr. Scott. Thank you, Mr. Chairman.
    And ma'am, what percent of the population is covered by 
TRICARE?
    Ms. Murray. I am not sure that I understand your question, 
Representative Scott.
    Mr. Scott. What percentage of the U.S. population is 
covered under TRICARE?
    Ms. Murray. Oh, I am sorry. I would have to get back with 
you on that.
    Mr. Scott. I think it is safe to say it is under 1 percent.
    Would that be a fair number?
    Ms. Murray [continuing]. Fair to me.
    Mr. Scott. I think it is under 1 percent. But, I guess, 
what I wrestle with is having a five-fold increase proposed on 
those men and women who have earned those benefits.
    And General Bostick, I appreciate what you said with 
balance the needs of the Nation with the needs of the soldier. 
You want to be part of the solution.
    Most of the soldiers I speak with, they are very modest and 
understand that we have a significant deficit. Believe the 
deficit is the greatest enemy of their children and their 
grandchildren and that it must be reduced.
    And I hear share the burden over and over and over again 
from our soldiers, which is very humbling to hear people who 
are out there serving say that.
    But let us just get to this question. And I like each of 
you to answer this for me.
    How much of the savings from slicing the benefits to the 
soldiers is going to fund increases in benefits for those on 
entitlement programs? And how much will go to reduce the 
deficit?
    General Jones?
    General Jones. Congressman, I don't have that number. I am 
sorry.
    Mr. Scott. Ma'am?
    Ms. Murray. Congressman, I don't have that answer.
    Mr. Scott. Admiral?
    Admiral Van Buskirk. Congressman, I don't have that answer 
either, sir.
    Mr. Scott. General Bostick?
    General Bostick. I would just say that it is probably 
fairly small. I don't have the number.
    Mr. Scott. It is a very small amount that would actually go 
to reduce the deficit.
    The bottom line is the military and those who serve in the 
military and those who support those who serve in the military 
and their families, and those who support the warfighter out 
there at the depots and putting the equipment together and 
making sure that our soldiers have the equipment that they need 
are taking it on the chin with indiscriminate slicing.
    And the bottom line is the majority of the cuts are going 
to go to fund entitlement programs under this administration.
    And so with that said, Mr. Chairman, I may have some 
questions that I would get to you that will be more specific 
than that, but the bottom line is what we are doing here is 
cutting a group of people that are out there protecting our 
individual personal freedoms, and going to turn around and 
shift that money to a group of people, quite honestly, that 
maybe don't appreciate what they do for this country.
    I yield my time.
    Mr. Wilson. Thank you very much, Mr. Scott.
    And Mrs. Davis has a follow-up question.
    Mrs. Davis. Thank you, Mr. Chairman.
    Are you finished with the rounds then? Do you think this--
--
    Mr. Wilson. Yes.
    Mrs. Davis. One question I think just as a result of, I 
think--wouldn't necessarily know those numbers specifically, 
but some of those savings back in the Services as I understand 
it that--because those are dollars that then don't have to come 
out of the defense budget in order to make some of the other 
goals.
    So, I think that would be helpful to understand whether or 
not that--how that happens in that case.
    I wonder if you could just--on a different issue that has 
come up recently again with the recent combat, women-in-combat 
report, which indicated that additional analyses would be 
needed in order to develop gender-neutral standards to allow 
women to serve in traditionally close combat positions.
    Do you have a status report on your Service's review of 
those gender-neutral standards, and where is your Service on 
this?
    Would you give us an update?
    General Bostick. I can give you a little bit of background 
on what we have done thus far.
    Every 3 years we conduct a cyclic review. And in the 2010 
cyclic review that the secretary and the chief conducted, they 
made a decision that we could open up six specialties, military 
occupational specialties, 80 different units, and about 13,000 
positions.
    We took that recommendation to the Secretary of Defense. 
And there was an overall study in DOD. And when we removed the 
colocation, the word colocation, it opened up that many 
positions.
    In addition to that, the chief and the secretary requested 
that we allow women to serve at the battalion level in open 
MOSs but closed units. So for example, if you are an 
intelligence officer, female, you could serve in a battalion in 
the 82nd Airborne Division. That is what has gone forward.
    The broader study is also part of a DOD effort to look at 
gender-neutral. So that is ongoing, but----
    Mrs. Davis. I think I was really just concerned with 
whether or not there are individuals looking at the physical 
standards, what they are developing, because for some of these 
positions that doesn't necessarily require this.
    General Bostick. That was the second effort.
    This first effort was to make sure that we remove 
colocation, move a lot of women to serve at the battalion 
level, and then the broader look at gender-neutral position is 
an ongoing effort at the OSD [Office of the Secretary of 
Defense]. And all of the Services are involved in that.
    Mrs. Davis. Okay. And so looking at those standards really 
as it relates to the physical standards----
    General Bostick. Correct.
    Mrs. Davis [continuing]. You are looking at those.
    General Bostick. Yes.
    Mrs. Davis. Okay, great.
    Can I ask you one more question?
    Really, I think we have addressed some of this, but we are 
obviously drawing down our forces. We are preparing our 
families.
    And I am wondering what authorities you need to support 
these transitions. Is there anything other than what you have 
been doing in the past?
    You don't need to relate all the programs that exist today, 
but what else do you need? Because we know that this is going 
to be a critical, critical area.
    General Bostick. I would say that----
    Mrs. Davis [continuing]. Any other authorities?
    General Bostick [continuing]. Where we really need help is 
in the licensing and ability of our soldiers to--once they 
determine--and they are service members and spouses--once they 
determine where they live, if they have a license or a 
certification in one state, the ability to use that in another 
state, at least in an interim fashion before they actually are 
able to get recertified in that other state. Because it is hard 
for them to decide where they want to live as is the case with 
many of us.
    The other thing is really getting a single portal where all 
the businesses that want to provide jobs to our service members 
and their families--a single portal, well, that can connect 
with the service member. And we are working with DOD and the 
Department of Veterans Affairs and Labor to try to pull that 
together.
    Admiral Van Buskirk. I will just echo what the general 
said.
    I think we are working closely with the office of the 
Secretary of the Defense on many of our transition programs. 
And I think that is pretty helpful as we look at this together.
    We are, as you are probably aware, in terms of our Enlisted 
Retention Board that we conducted, we are separating several 
sailors in an involuntary fashion.
    But as part of that, we have created some enhanced 
transition packages. And one area that we are having great 
success with is a contractor-based outplacement program to 
where we can use an outplacement service to help find the jobs, 
to help place them in different services out there.
    And additionally, we are doing a program called Shipmate to 
Workmate program where we are using NAVSEA [Naval Sea Systems 
Command]. It attends to where we have the sailors who are 
transitioning to offer our veterans jobs and positions within 
our NAVSEA organization.
    So, I think it gets down to being innovative, working 
collectively here, taking advantage of each other's initiatives 
that come into play and where they are successful, broadening 
them and funding them appropriately.
    Mrs. Davis. Thank you. Thank you. Okay.
    I think the time is up. And thank you, Mr. Chairman, for 
allowing me----
    Mr. Wilson. Absolutely.
    Mrs. Davis [continuing]. To ask another question.
    Mr. Wilson. I thank everyone for being here today. We 
really appreciate your service.
    And I want to thank, in particular, the subcommittee 
members who are present, and being prepared, and asked 
questions that were heartfelt.
    We are now adjourned.
    [Whereupon, at 3:29 p.m., the subcommittee was adjourned.]


=======================================================================




                            A P P E N D I X

                             March 6, 2012

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             March 6, 2012

=======================================================================


                      Statement of Hon. Joe Wilson

           Chairman, House Subcommittee on Military Personnel

                               Hearing on

                  Military Personnel Budget Overview--

                 Service Personnel Chiefs' Perspectives

                             March 6, 2012

    This is an especially important hearing because the 
subcommittee will hear the perspective of the military services 
about the reductions to Active Duty military personnel programs 
included in the budget request that so many congressional 
members have found troubling. Last week, the witnesses from the 
Office of the Secretary of Defense defended the budget request 
and the subcommittee members openly expressed their doubts and 
concerns.
    As I made clear last week, I must be counted among those 
Members with serious reservations about the budget request and 
the reductions in force and to the personnel programs that are 
included. America remains at war today with a ruthless and 
committed enemy that shows we must have resolve to stop the 
enemies overseas to protect American families at home.
    In the face of that reality, this budget offers no apology 
for program reductions that go to the heart of our military 
capability by undermining programs that serve our military 
personnel putting America and its allies such as Israel at 
greater risk. The proposed major reductions to end strength, 
compensation programs, and health care programs sap our combat 
capability and undermine the trust of service members, military 
families, and veterans.
    Now, the subcommittee will hear from the personnel 
leadership within the Services--the people with the most direct 
contact with the real stakeholders in this debate, the men and 
women serving our Nation in uniform. These are the leaders 
responsible for providing the manpower so critical to combat 
capability. If the subcommittee expects to hear the voice of 
our service members during testimony on this budget request, 
these are the witnesses we must rely on to bring us that 
message.

                    Statement of Hon. Susan A. Davis

        Ranking Member, House Subcommittee on Military Personnel

                               Hearing on

                  Military Personnel Budget Overview--

                 Service Personnel Chiefs' Perspectives

                             March 6, 2012

    We appreciate receiving your views on the fiscal year 2013 
budget request for military personnel, and look forward to 
hearing how the proposed budget will impact our military 
personnel and their families.
    As I mentioned last week, although the budget reductions 
have not severely impacted the military personnel accounts, 
they were not immune. We need to understand what impact there 
will be to personnel and family programs as a result of the 
proposed budget request.
    Over the past several years the Services made a good faith 
effort to fund quality-of-life programs for service members and 
their families in the base budget. Support for wounded warriors 
and their families, transition into civilian lives for those 
that are leaving service, care and support for families that 
are staying, these demands are not going to go away. In fact, 
in some cases, they may even increase. The Services will need 
to make a determination on what is important to sustain the 
All-Volunteer Force, and which may have to fall by the wayside. 
These are going to be difficult decisions, and the subcommittee 
will need to understand the reasoning that underpins these 
decisions.


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             March 6, 2012

=======================================================================



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             March 6, 2012

=======================================================================

      
                  QUESTIONS SUBMITTED BY MS. BORDALLO

    Ms. Bordallo. 1) In your prepared statement you stated Army was 
reducing on-board strength to meet targets. How do you reconcile that 
statement with the statutory prohibition against managing to mandated 
levels?
    General Bostick. The targets were driven by budget reductions from 
the Office of the Secretary of Defense (OSD). However, the Secretary of 
the Army told the House Armed Services Committee and American 
Federation of Government Employees that he would add civilian 
authorizations for in-sourcing actions that he approved, where 
appropriate.
    Ms. Bordallo. 2) In your statement you reference drawing down on-
board strength to meet FY10 levels, which we understand are based on 
authorized levels. What is the difference between the on-board and 
authorized levels in the Army?
    General Bostick. In the FY2012 Budget request, the Army estimated a 
civilian end-strength of 266,256; this estimate did not include 
civilians hired for the performance of Overseas Contingency Operations 
(OCO) funded missions, Civil Works funded missions, or Non-Appropriated 
Fund missions.
    As of month's end, February 2012, the Army's active civilian rolls 
were 277,987. (+11,631).
    Much of this discrepancy is the result of personnel hired to 
support ongoing operations OCONUS and in critical support roles both 
overseas and in the United States, much of it funded by OCO monies. 
Foremost among these are medical services and support (approximately 
4,200 in excess of programmed levels), repair and reset of equipment 
(approximately 2,500 in excess of programmed levels), and deployment 
and mobilization activities (approximately 4,500 OCO in excess of 
programmed levels).
    While the Army has not yet achieved its estimated end-state for 
FY2012, it is anticipated that it will through a process of rebalancing 
and reshaping all elements of our work force--military, civilian, and 
contractor. And that in doing so the Army will achieve efficiencies 
when possible and meet new or expanded mission requirements, such as 
transition programs and Sexual Assault Prevention and Response (SAPR), 
all within the constraints of the current fiscal environment.
    Ms. Bordallo. 3) In your statement you stated that Army suspended 
civilian employment offers for certain positions, a suspension that 
remained in effect for nearly 3 months. During that time, were OMA 
funded contract actions all suspended? How many contracts for services 
were extended or options exercised during this time period?
    General Bostick. During the time period of February 2, 2011 to 
April 29, 2011, OMA funded contract actions were not suspended. As 
needed to meet mission requirements, contracts for services were 
extended and options exercised during that time.
    During that time period, the Army extended the period of 
performance (by modification) or exercised an option on 99 contract 
actions, for an obligated amount of $69,868,520.63.
    Ms. Bordallo. 4) Were dollars for contracted workload restrained or 
limited to the same degree dollars for OMA funded civilians were?
    General Bostick. No, service support contracts were cut by about 
$100 million per year, whereas civilians were reduced by about $1 
billion per year. We are waiting for guidance from the Office of the 
Secretary of Defense (OSD) on how to implement Section 808 of the 
National Defense Authorization Act for 2012. This would restrain or 
limit dollars for contract workload to the same degree as Operations 
and Maintenance-funded civilians.
    Ms. Bordallo. 5) You've stated that you've established business 
processes and reporting mechanisms to effectively align requirements, 
authorizations, on-board strength and associated funding execution for 
the civilian workforce. How do those processes reconcile with the title 
10 total force language enacted in the FY12 NDAA and applicable DOD 
policies?
    General Bostick. Although we have established some business 
processes that will help us move toward this goal, we have not yet 
fully implemented them. When implemented, we will have greater 
visibility of our civilian workforce and be able to link our strategic 
human capital planning for civilians to the Program and Budget. This 
will also move us closer to the Total Force Management principles as 
prescribed in the FY12 NDAA.
    Ms. Bordallo. 6) What are you doing to ensure that the voluntary 
departures and attrition occurring to meet funded levels are not 
occurring in mission-critical occupations and that you're not losing 
highly desired and needed capabilities and competencies?
    General Bostick. To ensure voluntary departures and attrition in 
mission critical occupations are not causing us to completely lose 
highly desired and needed capabilities and competencies, we are having 
commands manage their positions and onboard strengths against their 
missions and functions. Although there may be some degradation in the 
experience level of employees that remain after the voluntary 
departures and attrition occur, by allowing commands to make these 
important management decisions the Army is best able to ensure desired 
and needed capabilities and competencies are maintained while still 
reducing its workforce.
    Ms. Bordallo. 7) How does the Department of Army's budget request 
for FY13 reconcile with legislative language set forth in Division A, 
Section 8012 of Consolidated Appropriations Act of 2012 (P.L. 112-74) 
which states that `` . . . during fiscal year 2012, the civilian 
personnel of the Department of Defense may not be managed on the basis 
of any end-strength, and the management of such personnel during that 
fiscal year shall not be subject to any constraint or limitation (known 
as an end-strength)'', and more specifically, that the fiscal year 2013 
budget request be prepared and submitted to the Congress as if this 
provision were effective with regard to fiscal year 2013?
    General Bostick. The Army's FY13 budget request complies with 
Section 8012 of the Consolidated Appropriation Act of 2012 (P.L. 112-
74). Army civilian personnel are not managed on the basis of end-
strength, but are managed based on executive and legislative guidance, 
strategic plans, resource levels, workload and mission requirements. As 
required by Office Secretary of Defense and the Congress, the Army 
documents the civilian personnel levels supported in the budget request 
in the OP-8 exhibit. The OP-8 reflects the specific funding for 
civilian personnel, as well as the number of full time equivalents 
(FTEs) and end strength.
    Ms. Bordallo. 8) President Obama has made reducing reliance on 
contractors and rebalancing the workforce a major management initiative 
of his Administration. In your opinion, given the restrictions on the 
size of your civilian workforce imposed by the Office of the Secretary 
of Defense, does the Army's FY13 budget request reflect an 
appropriately balanced workforce across all major capabilities, 
functional areas, and requirements?
    General Bostick. Given that the Army can submit waivers to the 
Deputy Secretary of Defense if mission requirements indicate the need 
for increased civilian workforce and as of March 6, 2012, there were no 
pending waiver request that were submitted from the Army. The Army's 
FY13 budget request reflects an appropriately balanced workforce across 
all major capabilities, functional areas, and requirements. The Army's 
governance of this efficiency initiative included a decentralized 
review of civilian positions by capability and functional area. The 
Army Audit Agency is auditing compliance with the statutory prohibition 
of absorbing civilian reductions with contractors without a public/
private competition.
    Ms. Bordallo. 9) Do you believe that all contracted services 
currently procured by the Department of Army are the most cost-
effective, appropriate, and risk-averse source of labor?
    General Bostick. Improvements in acquiring services in the Army are 
necessary and efforts are underway to make these improvements. The Army 
is fully committed to acquiring its contracted services in the most 
cost effective and appropriate manner, with a focus on minimizing risk 
to the government. The commitment is pervasive throughout the Army as 
the result of a September 2011 Secretary of the Army-approved 
Optimization of Army Services Implementation Plan. The Services 
Implementation Plan implements an oversight and governance structure, 
establishes clear lines of accountability, and sets minimum standards 
to meet requirements for services efficiently and affordably. 
Specifically, this plan establishes increased oversight and a portfolio 
governance concept, while establishing Commander's accountability for 
acquiring services. The Army also completed an Army-wide data call for 
Commands to identify services requirements and cost savings 
opportunities by portfolio, providing a forecast to enable effective 
management of services portfolios. Semi-annual Services Forecasts 
Updates and Quarterly Services Cost Savings Reports give the Army the 
ability to continuously track projected services acquisition 
requirements and cost savings. These actions are in effect today and 
managed by the Assistant Secretary of the Army (Acquisition, Logistics, 
and Technology) to comprehensively and efficiently meet mission 
requirements for contracted services. The Army will continue to 
strengthen oversight of contracted services.
    Ms. Bordallo. 10) What assurances can you give me that, as civilian 
reductions or hiring freezes are occurring across Army installations, 
work is not shifting illegally to contract performance?
    General Bostick. The Deputy Assistant Secretary of the Army for 
Force Management Manpower Resources issued instructions to the field 
explaining the law and regulations prohibiting the shifting of work 
previously performed by civilians to contract performance. To ensure 
compliance, we have asked Army Audit Agency (AAA) to audit this 
specific issue to determine the level of compliance.
    Ms. Bordallo. 11) What processes are in place within the Army to 
ensure the workload associated with reductions being made in the 
civilian workforce is in fact ceasing, as opposed to being absorbed by 
other labor sources such as contractors or military personnel?
    General Bostick. The Deputy Assistant Secretary of the Army for 
Force Management Manpower and Resources issued instructions to the 
field explaining the law and regulations prohibiting the shifting of 
work previously performed by civilians to contract performance. The 
Assistant Secretary of the Army for Manpower and Reserve Affairs has 
issued policy on the use of military manpower. We have asked Army Audit 
Agency (AAA) to audit this specific issue to determine the level of 
compliance.
    Ms. Bordallo. 12) To what extent have the existing data sets 
available to Army planners, specifically the annual inventory of 
inherently governmental and commercial activities, contributed to the 
functional streamlining, organizational realignments, workforce shaping 
decisions, and civilian personnel reductions reflected in last year's 
efficiencies initiative and continued in this year's budget?
    General Bostick. The annual Inherently Governmental and Commercial 
Activities (IGCA) Inventory has not been used for the functional 
streamlining, organizational re-alignments, workforce decisions, and 
civilian personnel reductions reflected in last year's efficiencies 
initiative and continued in this year's budget.
    Ms. Bordallo. 13) In achieving the right mix for the Total Force, 
how does the Department of Army use the annual inventory of inherently 
governmental and commercial activities, and associated manpower mix 
determinations, to identify the civilian workforce reductions reflected 
in the past two budgets?
    General Bostick. The Army did not use the Inherently Governmental 
and Commercial Activities Inventory (IGCA) to identify civilian 
workforce reductions reflected in the last two budgets. The Office of 
the Secretary of Defense (OSD) Comptroller and OSD Cost Analysis 
Program Evaluation used infrastructure codes in the program to identify 
all civilians performing generating force functions (such as support to 
military training, depot maintenance, acquisition, power projection) as 
overhead subject to reductions.
    Ms. Bordallo. 14) As efficiencies are being executed across the 
Department of Army, is the workload and functions associated with those 
being tracked as eliminated or divested through the annual inventory of 
functions?
    General Bostick. The annual Inherently Governmental and Commercial 
Activities Inventory, which is what we believe was being referred to 
here, is not used to track workload and functions eliminated or 
divested. Only the management at the local organizational level has 
visibility into the functions eliminated as a result of the targeted 
civilian reductions. Army Audit Agency is reviewing this matter.

    Ms. Bordallo. 15) How does the Navy's budget request for FY13 
reconcile with legislative language set forth in Division A, Section 
8012 of Consolidated Appropriations Act of 2012 (P.L. 112-74) which 
states that `` . . . during fiscal year 2012, the civilian personnel of 
the Department of Defense may not be managed on the basis of any end-
strength, and the management of such personnel during that fiscal year 
shall not be subject to any constraint or limitation (known as an end-
strength)'', and more specifically, that the fiscal year 2013 budget 
request be prepared and submitted to the Congress as if this provision 
were effective with regard to fiscal year 2013?
    Admiral Van Buskirk. The Department has established projected 
civilian funding levels based on overall program decreases, and works 
daily to balance critical mission requirements with fiscal realities. 
Current manpower targets represent our efforts to manage civilian 
personnel within FY 2010 funded levels, with some exceptions for 
critical growth areas such as the acquisition workforce, joint basing, 
intelligence programs, shipyards, and in-sourcing of security guards. 
The measures we are implementing with regard to civilian funding levels 
are consistent with current law, which directs us to manage civilian 
staffing levels based on expected workload and funding. An inevitable 
consequence of this is the use of common management tools, such as man 
hours and full time equivalents (FTE), in budgeting and planning. Our 
procedures allow for the adjustment of budgeted targets in light of 
unanticipated programmatic and fiscal realities.
    Ms. Bordallo. 16) President Obama has made reducing reliance on 
contractors and rebalancing the workforce a major management initiative 
of his Administration. In your opinion, given the restrictions on the 
size of your civilian workforce imposed by the Office of the Secretary 
of Defense, does the Navy's FY13 budget request reflect an 
appropriately balanced workforce across all major capabilities, 
functional areas, and requirements?
    Admiral Van Buskirk. The size of the civilian workforce is a 
function of the funded workload required to accomplish the Department 
of the Navy mission. When Department managers make decisions, they 
strive, consistent with legal requirements, to balance mission 
priorities, workload, and fiscal realities. The Department of the Navy 
has been very aggressive in reducing reliance on contractors, 
particularly service support and advisory and assistance contracts. 
From the FY 2010 budget request, funding has decreased 25%, from $4.5 
billion to $3.3 billion, for these types of contracts.
    However, the Department has increased funding for maintenance 
contracts, such as ship, facilities, equipment, and aircrafts, in order 
to sustain and maintain our force structure and infrastructure for the 
future. Since FY 2010, funding for maintenance contracts has grown from 
$6.6 billion to $10.3 billion. In some cases, the Navy does not have 
the organic capability to perform the required work and must partner 
with the private sector to accomplish this critical maintenance. An 
example of this is the inactivation of USS ENTERPRISE, which drives 
nearly $1 billion of the increase since FY 2010. We are continuing our 
in-sourcing and acquisition initiatives, to the greatest extent 
possible, and work diligently to maintain an appropriately balanced 
workforce of civilians and contractors.
    Ms. Bordallo. 17) Do you believe that all contracted services 
currently procured by the Navy are the most cost-effective, 
appropriate, and risk-averse source of labor?
    Admiral Van Buskirk. While most of the Department of the Navy's 
(DON) contracted services are cost-effective, appropriate, and risk-
averse, DON has appointed a Senior Services Manager (SSM) to develop 
processes and oversee evaluation of contracted services to identify and 
correct those that do not meet the above criteria. Additionally, the 
SSM is executing process improvement initiatives designed to implement 
and execute services acquisition efficiencies described in the Under 
Secretary of Defense for Acquisition, Technology and Logistics 
(USD(AT&L) memo titled ``Better Buying Power, Guidance for Obtaining 
Greater Efficiency and Productivity in Defense Spending'', dated 
September 14, 2010.
    The SSM is engaged in improving services acquisition through (but 
not limited to):--Requirements validation--Improved Requirements 
Definition--Improved Oversight (Management and Oversight Process for 
the Acquisition of Services (MOPAS2))--Services Contracts Forecasting--
Increased development/use of tools, templates and best practices--
Organizational Health Assessments regarding services acquisition--
Policy--Robust Spend Analysis (using DOD Services Portfolio Taxonomy)--
Market/Business Intelligence--Strategic Sourcing
    DON has piloted, and is implementing DON-wide, a Services 
Requirements Review to establish a uniform review to identify, 
forecast, validate, assess, plan, and monitor service acquisitions 
across the Department to ensure the acquisitions are cost-effective, 
appropriate, and efficient. The review is an integral part of DON's 
comprehensive implementation of Section 863 of the National Defense 
Authorization Act for Fiscal Year 2011.
    Ms. Bordallo. 18) What assurances can you give me that, as civilian 
reductions or hiring freezes are occurring across Navy installations, 
work is not shifting illegally to contract performance?
    Admiral Van Buskirk. The Department of the Navy adheres to the 
guidelines as set forth in10 USC Section 2461, which generally provides 
at (a) (1), '' No function of the Department of Defense performed by 
Department of Defense civilian employees may be converted, in whole or 
in part, to performance by contractor unless the conversion is based on 
the results of public-private competition . . . '' and 10 USC 2463 
provides guidelines and procedures for use of civilian employees to 
ensure compliance with legislative requirements concerning the use of 
contracted services.
    To manage contracted services oversight, which includes managing 
appropriate contractor application, the DON established the Senior 
Services Manager Organization (SSM) within DASN (Acquisition and 
Procurement) to focus on the following when contracting for services:--
Improved Requirements Definition--Improved Oversight (Management and 
Oversight Process for the Acquisition of Services (MOPAS2))--Increased 
development/use of tools, templates and best practices--Organizational 
Health Assessments regarding services acquisition--Policy--Robust Spend 
Analysis
    The SSM is also engaged with DON and OSD stakeholders to become 
compliant with 10 USC 2330a (Inventory of Contracts for Services), 
which requires the DON to complete a review of the inventory to 
identify any inherently governmental or closely associated with 
inherently governmental functions being performed by contractors and 
remediate as required.
    Ms. Bordallo. 19) What processes are in place within the Navy to 
ensure the workload associated with reductions being made in the 
civilian workforce is in fact ceasing, as opposed to being absorbed by 
other labor sources such as contractors or military personnel?
    Admiral Van Buskirk. Managers within the Navy strive for the most 
effective utilization of its human resources by balancing and assigning 
workload based on validated manpower requirements. DON reduction in 
civilian workforce has been based on process improvements and/or 
workload reduction. Transfer of work from government personnel to 
contractor performance cannot be done without a public-private 
competition. Recent efficiency reviews monitored levels of the Total 
Force mix to identify and assess trends. In addition, the DON adheres 
to the DODI 1100.22, which provides workforce mix guidance to assess 
instances where human capital shortages and excesses are identified and 
to align manning levels to achieve a more effective and efficient 
division of labor.
    Ms. Bordallo. 20) To what extent have the existing data sets 
available to Navy planners, specifically the annual inventory of 
inherently governmental and commercial activities, contributed to the 
functional streamlining, organizational realignments, workforce shaping 
decisions, and civilian personnel reductions reflected in last year's 
efficiencies initiative and continued in this year's budget?
    Admiral Van Buskirk. The annual inventory of Inherently Government 
and Commercial Activities and the Inventory of Contracted Services are 
two of the tools used by department leadership to make human resource 
and workforce shaping decisions and implement functional streamlining 
and organizational realignments. The data sets contained within the 
inventory are used in varying degrees to influence decision-making as 
we continue to better integrate our Total Force.
    All of the resources reduced from DON overhead within functional 
streamlining, organizational realignments, and workforce shaping 
reported in the FY 2012 President's Budget request, have remained 
intact through the FY 2013 budget review.
    Ms. Bordallo. 21) In achieving the right mix for the Total Force, 
how does the Navy use the annual inventory of inherently governmental 
and commercial activities, and associated manpower mix determinations, 
to identify the civilian workforce reductions reflected in the past two 
budgets?
    Admiral Van Buskirk. The Department of the Navy uses the inventory 
to influence workforce shaping and other manpower and manning decisions 
as we continue to better integrate our Total Force and comply with the 
general policy for Total Force management.
    Ms. Bordallo. 22) As efficiencies are being executed across the 
Navy, is the workload and functions associated with those being tracked 
as eliminated or divested through the annual inventory of functions?
    Admiral Van Buskirk. The Department of the Navy (DON) is committed 
to tracking efficiencies and ensuring impact to the warfighter, 
capabilities, and missions is minimized. To accomplish this, the DON 
continues to leverage existing processes and forums to inform risk 
management and execution. At the senior-level, the DON continues to 
utilize two major governing bodies to ensure leadership has the 
wherewithal to interact on a timely and meaningful basis with those 
responsible for execution. At the subordinate-level, individual 
entities within DON continue to manage and document processes and 
requirements. Overall, this approach is iterative and will continue to 
inform the way ahead as plans mature. To date, this structure is 
generating the results needed to successfully track and manage 
efficiencies.
    Ms. Bordallo. 23) What progress has been made with the requirement 
from the FY11 appropriations to allocate $2 million dollars for the 
development of the Army's Contractor Manpower Reporting System for the 
Navy?
    Admiral Van Buskirk. The Department of Navy (DON) is executing the 
development of, and is on schedule to meet, the October 2012 initial 
operational capability detailed in the DON plan dated October 31, 2011. 
DON has made the $2M available and is executing the plan into two 
phases.
    Phase 1 completed the technical evaluation of the Army system and 
developed a performance-based statement-of-work to address required 
programming changes and database-hosting issues regarding 
implementation execution in February 2012. Outputs of the first phase 
included implementation requirements and the associated costs/
Independent Government Estimate supporting the second phase.
    Phase 2 is underway with two specific focus areas: manipulation of 
the Army code, and development of the necessary processes for secure 
hosting and information technology (IT) security. The data programming 
changes, and testing, necessary to map/use DON data in the Army 
system's framework code are to be executed by an 8(a) vendor over the 
next few months (late Spring--early Summer 2012). Concurrently, hosting 
and IT security arrangements are being developed to provide the proper 
authority to host, operate, and connect the system to the network.

    Ms. Bordallo. 24) In your prepared statement, you indicated that a 
full review of the Total Force was conducted in late 2010. To what 
extent did your inventory of contracts for services contribute to that 
review?
    Ms. Murray. The total force review in 2010 did not include a review 
of service contracts. The Army's contractor tracking system is being 
evaluated for use/implementation within the Department of the Navy.
    Ms. Bordallo. 25) You stated that you needed to define civilian 
workforce requirements to meet civilian budget reductions? That seems 
to be budget-driven strategy, as opposed to strategy-driven budgeting. 
What requirements did you not execute as a result of these reductions?
    Ms. Murray. The budget reductions necessitated a strategic review 
of civilian requirements which is on-going. This includes a review of 
the workload to determine whether our civilian assets are aligned with 
the mission and performing functions necessary in a post OEF 
environment. Marine Corps commands have not identified the inability to 
execute any requirements to date.
    Ms. Bordallo. 26) You indicated that the Marine Corps implemented a 
hiring freeze while worked was prioritized and defined. During that 
time, where Marine Corps contract actions also suspended? How many 
contracts for services were extended or options exercised during this 
time period?
    Ms. Murray. Marine Corps contract actions were not suspended; 
however, during the freeze, commands were prohibited from entering into 
new contracts to fill the gap as a result of vacant civilian positions. 
We are unable to determine how many service contracts were extended 
during the hiring freeze.
    Ms. Bordallo. 27) You stated the Marine Corps has reduced civilian 
levels to meet targets. How do you reconcile that statement with the 
statutory prohibition against managing to mandated levels?
    Ms. Murray. The Marine Corps is aware of the prohibition against 
managing to mandated levels as stipulated in 10 USC Section 129. The 
Marine Corps restrained growth by establishing budgetary targets (not 
end strength targets) consistent with current fiscal realities.
    Ms. Bordallo. 28) How does the Marine Corps' budget request for 
FY13 reconcile with legislative language set forth in Division A, 
Section 8012 of Consolidated Appropriations Act of 2012 (P.L. 112-74) 
which states that `` . . . during fiscal year 2012, the civilian 
personnel of the Department of Defense may not be managed on the basis 
of any end-strength, and the management of such personnel during that 
fiscal year shall not be subject to any constraint or limitation (known 
as an end-strength)'', and more specifically, that the fiscal year 2013 
budget request be prepared and submitted to the Congress as if this 
provision were effective with regard to fiscal year 2013?
    Ms. Murray. The Marine Corps has restrained growth by establishing 
budgetary targets (not end strength targets) consistent with current 
fiscal realities. Civilian personnel are not managed on the basis of 
end-strength.
    Ms. Bordallo. 29) President Obama has made reducing reliance on 
contractors and rebalancing the workforce a major management initiative 
of his Administration. In your opinion, given the restrictions on the 
size of your civilian workforce imposed by the Office of the Secretary 
of Defense, does the Marine Corps' FY13 budget request reflect an 
appropriately balanced workforce across all major capabilities, 
functional areas, and requirements?
    Ms. Murray. This will be difficult to answer until all reductions 
are levied by OSD. At that time, the Marine Corps will have fully 
implemented Strategic Total Force Management and Planning which will 
require a determination of the appropriate workforce mix.
    Ms. Bordallo. 30) Do you believe that all contracted services 
currently procured by the Marine Corps are the most cost-effective, 
appropriate, and risk-averse source of labor?
    Ms. Murray. Marine Corps leadership is in the initial stages of 
developing a methodology for reviewing and assessing the cost 
effectiveness and appropriateness of service contracts. Department of 
the Navy implementation of the Army's tool to track contractors will 
aid tremendously in this effort
    Ms. Bordallo. 31) What assurances can you give me that, as civilian 
reductions or hiring freezes are occurring across Marine Corps 
installations, work is not shifting illegally to contract performance?
    Ms. Murray. The Marine Corps ensured subordinate commands are aware 
of the restriction on converting any work currently performed, or 
designated for performance, by any number of civilian personnel to 
private sector (contract) work as required by OMB. These restrictions 
were recently reaffirmed in an OSD memorandum of 8 March 2012. Any 
alleged violation will be investigated immediately.
    Ms. Bordallo. 32) What processes are in place within the Marine 
Corps to ensure the workload associated with reductions being made in 
the civilian workforce is in fact ceasing, as opposed to being absorbed 
by other labor sources such as contractors or military personnel?
    Ms. Murray. The Marine Corps has restrained growth in the civilian 
workforce consistent with current fiscal realities through a hiring 
freeze that enabled us to prioritize requirements and align resources 
with capabilities. Subordinate commands are aware of the restriction on 
converting any work currently performed, or designated for performance, 
by any number of civilian personnel to private sector (contract) work 
as required by OMB.
    Ms. Bordallo. 33) To what extent have the existing data sets 
available to Marine Corps planners, specifically the annual inventory 
of inherently governmental and commercial activities, contributed to 
the functional streamlining, organizational realignments, workforce 
shaping decisions, and civilian personnel reductions reflected in last 
year's efficiencies initiative and continued in this year's budget?
    Ms. Murray. The Marine Corps has not experienced personnel 
reductions but has restrained growth consistent with current fiscal 
realities. The inventory of inherently governmental and commercial 
activities will be utilized when the Marine Corps fully implements 
Strategic Total Force Management and Planning.
    Ms. Bordallo. 34) In achieving the right mix for the Total Force, 
how does the Marine Corps use the annual inventory of inherently 
governmental and commercial activities, and associated manpower mix 
determinations, to identify the civilian workforce reductions reflected 
in the past two budgets?
    Ms. Murray. The Marine Corps has not experienced personnel 
reductions but has restrained growth consistent with current fiscal 
realities. The inventory of inherently governmental and commercial 
activities and other workforce mix determinations will be utilized when 
the Marine Corps fully implements Strategic Total Force Management and 
Planning.
    Ms. Bordallo. 35) As efficiencies are being executed across the 
Marine Corps, is the workload and functions associated with those being 
tracked as eliminated or divested through the annual inventory of 
functions?
    Ms. Murray. As missions and workloads change within the Marine 
Corps, new billets within the affected commands are added and deleted 
based on new requirements. This eliminates the requirement for review 
during the annual Inherently Governmental Inventory.

    Ms. Bordallo. 36) How does the Department of Air Force's budget 
request for FY13 reconcile with legislative language set forth in 
Division A, Section 8012 of Consolidated Appropriations Act of 2012 
(P.L. 112-74) which states that `` . . . during fiscal year 2012, the 
civilian personnel of the Department of Defense may not be managed on 
the basis of any end-strength, and the management of such personnel 
during that fiscal year shall not be subject to any constraint or 
limitation (known as an end-strength)'', and more specifically, that 
the fiscal year 2013 budget request be prepared and submitted to the 
Congress as if this provision were effective with regard to fiscal year 
2013?
    General Jones. The Air Force does not manage its civilian workforce 
by any constraint or limitation in terms of man-years, end-strength, 
fulltime equivalent positions, or maximum number of employees. Based on 
fiscal constraints, OSD-directed civilian workforce budgetary targets 
for fiscal year 2012 achieved through strategic reviews to improve 
business operations, streamline administrative functions, and eliminate 
low-priority/overhead functions and expenses. For the fiscal year 2013 
(FY13) budget request, the Air Force determined the best workforce mix 
based on the most-efficient and cost-effective means to perform the Air 
Force mission. The FY13 budget request also accounted for budget 
constraints while at the same time returning a flexible, agile, and 
ready workforce.
    Ms. Bordallo. 37) President Obama has made reducing reliance on 
contractors and rebalancing the workforce a major management initiative 
of his Administration. In your opinion, given the restrictions on the 
size of your civilian workforce imposed by the Office of the Secretary 
of Defense, does the Air Force's FY13 budget request reflect an 
appropriately balanced workforce across all major capabilities, 
functional areas, and requirements?
    General Jones. The FY13 budget request reflects an appropriately 
balanced workforce that meets required budget reductions that preserves 
readiness while avoiding a hollow force. The Air Force's ``sourcing'' 
of functions and work between military, civilian, and contracted 
services must be consistent with workload requirements, funding 
availability, readiness and management needs, as well as applicable 
laws and statute. The fiscal year 2013 budget request reflects our best 
judgment today and represents a carefully coordinated approach based on 
the Department of Defense's strategy and policy that balances 
operational needs and fiscal reality. The Air Force remains committed 
to meeting its statutory obligations to annually review missions, 
functions, and workforce composition, including reliance on contracted 
services, and to ensure the workforce is appropriately balanced and 
aligned to our most critical priorities.
    Ms. Bordallo. 38) Do you believe that all contracted services 
currently procured by the Department of Air Force are the most cost-
effective, appropriate, and risk-averse source of labor?
    General Jones. The Air Force's ``sourcing'' of functions and work 
between military, civilian, and contracted services must be consistent 
with workload requirements, funding availability, readiness and 
management needs, as well as applicable laws and statute. The fiscal 
year 2013 budget request reflects our best judgment today and 
represents a carefully coordinated approach based on the Department of 
Defense's strategy and policy that balances operational needs and 
fiscal reality. The Air Force remains committed to meeting its 
statutory obligations to annually review missions, functions, and 
workforce composition, including reliance on contracted services, and 
to ensure the workforce is appropriately balanced and aligned to our 
most critical priorities.
    Ms. Bordallo. 39) What assurances can you give me that, as civilian 
reductions or hiring freezes are occurring across Air Force 
installations, work is not shifting illegally to contract performance?
    General Jones. We are tracking, on a monthly basis, our use of 
support contractors performing knowledge based services, service 
support contractors, management support services, and advisory studies 
to ensure that we achieve already planned/programmed reductions. These 
actions, coupled with the current monthly tracking of the financial 
obligations of contract usage, facilitate prevention of inappropriate 
migration of workload from organic to contract support. In addition, we 
worked closely with USD (P&R) who developed a memo dated 1 Dec 2011 
Prohibition on Converting Certain Functions to Contract Performance. 
The basic intent of this memo was to inform leadership at all levels 
and to reiterate the need to be cognizant of not converting work 
performed by organic personnel to contract performance.
    Ms. Bordallo. 40) What processes are in place within the Air Force 
to ensure the workload associated with reductions being made in the 
civilian workforce is in fact ceasing, as opposed to being absorbed by 
other labor sources such as contractors or military personnel?
    General Jones. The main process is the AF's planning, programming, 
and budget execution process. The Air Force conducted a comprehensive 
strategic review to increase efficiency, reduce overhead, and eliminate 
redundancy while preserving or growing the most critical mission areas 
in our civilian workforce. This force mix determination will be 
reviewed annually as we submit our president's budget submission to 
ensure that we maintain the most-efficient and cost-effective means to 
perform the Air Force mission, taking into account current budget 
realities.
    Ms. Bordallo. 41) To what extent have the existing data sets 
available to Air Force planners, specifically the annual inventory of 
inherently governmental and commercial activities, contributed to the 
functional streamlining, organizational realignments, workforce shaping 
decisions, and civilian personnel reductions reflected in last year's 
efficiencies initiative and continued in this year's budget?
    General Jones. The efficiencies initiatives began under Secretary 
Gates, and continued in this year's budget, were implemented based on 
guidance to conduct organizational assessments and mission/function 
prioritization. This guidance required the Air Force to: baseline our 
organizations; assess and prioritize missions; eliminate duplication; 
ensure workload distribution; and submit recommendations for 
organization restructuring and reallocation of manpower, including 
workforce reductions.
    While the guidance did not specifically require DOD components to 
use their annual inventory of inherently governmental and commercial 
activities, it is one of many data sets and workload quantification 
sources that the Air Force utilizes during the planning, programming, 
and budget execution process.
    Ms. Bordallo. 42) In achieving the right mix for the Total Force, 
how does the Department of Air Force use the annual inventory of 
inherently governmental and commercial activities, and associated 
manpower mix determinations, to identify the civilian workforce 
reductions reflected in the past two budgets?
    General Jones. The Air Force conducted a comprehensive strategic 
manpower review to size civilian workload contained in our past two 
budgets with the goal to increase efficiency, reduce overhead, and 
eliminate redundancy while preserving or growing the most critical 
mission areas--not necessarily the IGCA review. However, the Air Force 
continually refines our Total Force skill mix to include civil servants 
and contractors, to determine the most appropriate, efficient, and 
cost-effective means of performing Air Force missions. As outlined in 
Department of Defense Instruction, 1100.22, ``Policy and Procedures for 
Determining Workforce Mix'', as well as Federal Acquisition Regulations 
7.5, Defense Federal Acquisition Regulation 207.5, and Air Force 
Instruction, 38-204, Programming USAF Manpower, the Air Force adheres 
to the overarching guidance regarding workforce mix determination. 
Also, the Air Force annually performs a comprehensive annual Inherently 
Governmental and Commercial Activities review to ensure it has the 
proper work force mix. This review categorizes all organically 
performed work as either an inherently governmental function (which 
must be performed by organic personnel) or a commercial activity (could 
be performed by organic or contractor support).
    Ms. Bordallo. 43) As efficiencies are being executed across the 
Department of Air Force, is the workload and functions associated with 
those being tracked as eliminated or divested through the annual 
inventory of functions?
    General Jones. The annual Inherently Governmental and Commercial 
Activity review is not currently utilized to track eliminated or 
divested functions, but rather, identifies current positions that are 
either inherently governmental or a commercial activity in nature. As 
efficiencies are realized, government positions identified with 
performing those functions are removed from unit manning documents. 
Contractor reductions associated with efficiencies are tracked via a 
combination of financial commitments and organization surveys.
    Ms. Bordallo. 44) What progress has been made with the requirement 
from the FY11 appropriations to allocate $2 million dollars for the 
development of the Army's Contractor Manpower Reporting System for the 
Air Force?
    General Jones. The Air Force continues to work closely with 
OUSD(C), OUSD (P&R), and OUSD (AT&L) to fulfill contractor accounting 
mandated by Congress. Section 8108 of Public Law 112-10, the Department 
of Defense and Full-Year Continuing Appropriations Act 2011, required 
the Air Force to set aside no less than $2M to implement the Army's 
Contractor Manpower Reporting Application with service specific 
requirements to document the number of full-time contractor employees. 
We have defined the system requirements; created a beta version of the 
technical solution to capture these requirements; and have developed 
the appropriate mechanism to direct all AF contractors to provide these 
requirements. However, two major hurdles arose during this development 
that must be rectified soon if we are going to make our projected 
timeline of 1 Oct 12 to start collecting FY12 service contractor 
information:
    Technical Solution Certification and Approval--We have been working 
extensively with the Army to implement their existing system for the 
AF's use. Our current plan is to initially house this system on the 
Army's server so that we are covered by the current Army CMRA until the 
Air Force has proper certifications to transfer the CMRA program to Air 
Force servers.
    Approval to Incorporate Reporting Requirement in Contracts--The DOD 
requested emergency processing and approval of a public information 
collection requirement on 16 Dec 11. This was answered on 7 Feb 12 with 
the Federal Register Notice Announcement that required a full 60-day 
comment period for our data collection plan with respect to the 
inventory of contracts for services. We are not expecting a final 
decision until May 2012 at the earliest regarding this request.
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. LOEBSACK
    Mr. Loebsack. 45) What steps are being taken to ensure that the Air 
Force personnel who will have their billets eliminated have access to 
assistance such as early retirement, placement options with other 
units, and transition assistance? Do you need legislative authority in 
order to be able to offer comprehensive assistance to these National 
Guard and Reserve Airmen who will have their billets eliminated? How 
and when will the Airmen who will see their billets eliminated in FY 
2013 be able to access this assistance, especially if the Air Force 
requires legislative authority through the FY 2013 National Defense 
Authorization Act in order to offer these benefits?
    General Jones. From an active component perspective, Air Force 
force management programs size and shape the force to meet 
congressionally mandated end strength. Our multi-year strategy is 
focused on managing the force along the 30-year continuum of service. 
This strategy has allowed the Air Force to leverage voluntary measures 
first, offer incentivized programs where needed, and implement 
involuntary measures as required to yield a high quality active 
component force.
    The active component has early retirement authorities that were 
granted in the FY12 NDAA. We are using the Temporary Early Retirement 
Authority (TERA) to encourage voluntary losses within the enlisted 
force--Airmen with 15-19 years of service in the grades of Staff 
Sergeant through Master Sergeant in overmanned Air Force Specialties. 
This targeted approach will size and shape the force to end-strength 
requirements and the skills needed today and into the future.
    The Air National Guard is currently pursuing three Force Shaping 
legislative proposals through the FY13 legislative process to support 
the FY13 changes in ANG missions and end strength--all of which have 
been transmitted to Congress by the Office of Secretary of Defense. The 
first proposal would allow members of the Selected Reserve to qualify 
for non-regular service retirement with 15, rather than 20, creditable 
years of reserve service. The FY 12 NDAA provided this authority for 
active component members. The second proposal, Section 702 of the House 
Armed Services Committee's NDAA would extend the eligibility of members 
of the Selected Reserve for TRICARE Reserve Select and TRICARE dental 
insurance for 180 days at the discounted rate for members of the 
Selected Reserve that are involuntarily separated without cause due to 
end-strength reductions or force management actions. And the third 
proposal would establish a new category of eligibility for military 
permanent change of station moves of family and household goods--
traditional reservists displaced by force draw downs that are hired to 
fill a bona fide traditional unit vacancy in another reserve unit 
somewhere else in the country.
    These benefits would be available for Guard and Reserve Airmen upon 
approval of Congress. Access and assistance in leveraging these 
benefits will be available through support mechanisms already in place 
whether the Airmen are collocated with active component units or 
reserve units are geographically separated. The Air Force is committed 
to ensuring a smooth transition to civilian life for our Airmen who can 
no longer serve in uniform.

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
